COMMONWEALTH OF PENNSYLVANIA

OFFICE OF ATTORNEY GENERAL
JOSH SHAPIRO
ATTORNEY GENERAL

October 28, 2020
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Washington, D.C. 20543
RE:

Republican Party of Pa. v. Kathy Boockvar, Secretary of Pa., et al.,
No. 20-542

Dear Mr. Harris:
We write to inform you that today, October 28, 2020, the Office of the Secretary of the
Commonwealth issued guidance to the county boards of election directing them to, inter alia,
securely segregate all mail-in and civilian absentee ballots received between 8:00 p.m. on
Tuesday, November 3, 2020, and 5:00 p.m. on Friday, November 6, 2020, from all other voted
ballots.
A copy of this guidance is attached. We would appreciate if you would circulate copies of
this letter and attachment to the Justices of the Court. Thank you.

Best regards,
/s_J. Bart DeLone___________
J. Bart DeLone
Chief Deputy Attorney General
MJS/JBD
CC: Attached service list

